=
I

C@OCKLE

L Brief E-Mail Address:
€ 8 a l s contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1260
ANDREW DEMMA,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of August, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONER in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
SHON HOPWOOD DAWINDER S. SIDHU*
KYLE SINGHAL KELSEY ROBINSON
1701 Pennsylvania Ave. NW 9636 Gudelsky Drive
Suite 200 Rockville, MD 20850
Washington, DC 20006 (301) 633-8313

dss@umbc.edu

RICHARD E. MAYHALL
20 S. Limestone Street Counsel for Petitioner
Suite 120
Springfield, OH 45502 * Counsel of Record

Subscribed and sworn to before me this 7th day of August, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

err] Konse 0. Booo Ondban th. ble

Notary Public Affiant 39849

My Comm. Exp. September 5, 2023

 

 
SERVICE LIST

Jeffrey Wall

Acting Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217

supremectbriefs@usdoj.gov
